IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

RONNIE EUGENE FUSTON, )
Petitioner, ;
THE STATE OF OKLAHOMA,

Respondent.

AFFIDAVIT OF RE-MAILING
COUNTY OF OKLAHOMA, STATE OF OKLAHOMA ) SS.

I, Andrea Digilio Miller, being first duly sworn, depose and say that 1 ama
member of the bar of this Court, that I am the attorney for Petitioner Ronnie E.
Fuston, and that I caused to be mailed an original and eleven (11) true and correct
copies of the Petition For Writ Of Certiorari To The Oklahoma Court Of Criminal
Appeals to the Office of the Clerk, Supreme Court of the United States, on the LO.
day of November, 2020, by depositing same in the United States Mails, postage
prepaid.

I further depose and say that I caused to be mailed a true and correct copy
of the foregoing Petition For Writ Of Certiorari To the Oklahoma Court Of Criminal
Appeals to Jennifer Miller, Chief of Criminal Division, Office of the Attorney
General, on the 20 day of November, 2020.

Further Affiant sayeth not.

   

ANDREA DIGILIO MILLER

Subscribed and sworn to before me this@O day of November, 2020.

Mi Bry —

NOTARY PUBLIC

MY COMMISSION EXPIRES:

  
